                 U.S. Department of Agriculture

                    Office of Inspector General
                           Great Plains Region




       Audit Report

  Food and Nutrition Service
National School Lunch Program
  Platte County R-III District
      Platte City, Missouri




                       Report No. 27010-21-KC
                                   March 2004
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL - AUDIT
                                         Great Plains Region
                                    8930 Ward Parkway, Suite 3016
                                   Kansas City, Missouri 64114-3302
                                 TEL: 816.926.7667 FAX: 816.926.7676




DATE:         April 15, 2004

REPLY TO
ATTN OF:      27010-21-KC

SUBJECT:      National School Lunch Program – Platte County R-III District,
              Platte City, Missouri

TO:           Darlene Barnes
              Regional Administrator
              Food and Nutrition Service
              1244 Speer Boulevard, Suite 903
              Denver, CO 80204


This report presents the results of the subject audit.          Your written response, dated
February 5, 2004, to the official draft report has been incorporated into the Findings and
Recommendations section of the report, where appropriate. The text of the response is attached
as exhibit D. Your reply expressed general agreement with the recommendations; however, we
were unable to reach management decisions on any of the recommendations. The Findings and
Recommendations section of the report explains those actions necessary for us to consider
management decisions on Recommendations Nos. 1, 2, 3, and 4. In general, we will need to be
advised of the specific actions completed or planned, along with acceptable dates for completing
the proposed actions. In addition, the costs for unaccounted commodities must be recovered or
credited to the local school authority.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing corrective actions taken or planned and the timeframes for accomplishing final action.
Please note that the regulation requires management decisions to be reached on all findings and
recommendations within 6 months from the date of report issuance and final action should be
completed within 1 year of management decision.

We appreciate the assistance provided to us during our review.

/s/


DENNIS J. GANNON
Regional Inspector General
 for Audit
Executive Summary
Food and Nutrition Service, National School Lunch Program, Platte County R-III, Platte
City, Missouri (Audit Report No. 27010-21-KC)

Results in Brief               This report presents the results of our audit of the National School Lunch
                               Program (NSLP),1 as operated by Platte County R-III District. This district
                               served as the local school food authority (SFA) under an agreement with the
                               Missouri Department of Elementary and Secondary Education, which served
                               as the State agency. The United States Department of Agriculture’s (USDA)
                               Food and Nutrition Service (FNS) served as the funding agency. For school
                               year 2001/2002 operations, the SFA claimed about $101,000 in FNS
                               reimbursement and about $3,000 in State agency reimbursement.

                               Our objectives were to evaluate the SFA’s meal accountability, procurement,
                               accounting systems, and management controls that were designed to provide
                               reasonable assurance as to the accuracy of its meal claims and reimbursement
                               for school years 2001/2002 and 2002/2003.

                               We found that the SFA did not effectively monitor its contracted Food
                               Service Management Company (FSMC). The SFA did not establish internal
                               controls to ensure the SFA received full credit for USDA commodities used
                               by the FSMC for the operation of the NSLP. As a result, the SFA did not
                               receive credit for USDA commodities valued at approximately $8,000. The
                               SFA’s internal controls were also not adequate to ensure that reimbursement
                               claims were accurate. The SFA also did not perform required annual onsite
                               reviews. In addition, vending machines that contained foods of minimal
                               nutritional value were located in the lunch serving area. The report also
                               contains a general comment that the SFA’s accounting procedures did not
                               include crediting a pro rata share of interest earned from investments to the
                               food service account.

Recommendations
In Brief                       We recommended that FNS instruct the State agency to require the SFA to
                               perform beginning and ending inventories of commodities and develop
                               procedures to ensure that the FSMC provides credit for the value of
                               commodities used. In addition, we recommended FNS require the State
                               agency, SFA, and FSMC to reconcile the total commodities used during the
                               2002/2003 school year to ensure the SFA is properly credited for the
                               commodities valued at over $8,000 or the final amount determined through
                               the reconciliation process. The State agency should encourage the SFA to
                               prevent overrides of controls designed to prevent claiming more than one
                               meal per day per student, perform the annual onsite reviews, and eliminate
                               foods that are in competition with the school lunch program during meal
                               serving times.
1
    Also includes the School Breakfast Program (SBP).

USDA/OIG-A/27010-21-KC                                                                               Page i
FNS Response       Although agency response showed FNS officials generally concurred with
                   the recommendations, it did not provide sufficient information to reach
                   management decisions on any of the recommendations. We made minor
                   editorial changes to the report to reflect the suggestions FNS made in its
                   written response regarding Recommendation No. 1 and exhibit A – Summary
                   of Monetary Results. We incorporated their comments in the applicable
                   sections of the report and attached a copy of the comments as exhibit D.

OIG Position       The Findings and Recommendations section of the report explains those
                   actions necessary for us to consider management decisions on
                   Recommendations Nos. 1, 2, 3, and 4. In order to reach management
                   decisions, we will need to be advised of the specific actions completed or
                   planned along with acceptable dates for completing the contemplated actions
                   and evidence of actions taken to recover the unaccounted commodities.




USDA/OIG-A/27010-21-KC                                                                 Page ii
Abbreviations Used in This Report

the Act             Richard B. Russell National School Lunch Act
CFR                 Code of Federal Regulations
FNS                 Food and Nutrition Service
FSMC                Food Service Management Company
NSLP                National School Lunch Program
OIG                 Office of Inspector General
POS                 Point of Service
RFP                 Request for Proposal
SBP                 School Breakfast Program
SFA                 School Food Authority
USDA                United States Department of Agriculture




USDA/OIG-A/27010-21-KC                                             Page iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Internal Controls Over the NSLP/SBP.......................................................................... 3

        Finding 1             The SFA Lacked Internal Controls and Inadequately Monitored the FSMC.......... 3
                                  Recommendation No. 1.................................................................................... 7
                                  Recommendation No. 2.................................................................................... 8
                                  Recommendation No. 3.................................................................................... 8
                                  Recommendation No. 4.................................................................................... 8

General Comments ............................................................................................................................... 10

        No Procedures to Prorate Interest Income to the Food Service Fund ........................................... 10

Scope and Methodology........................................................................................................................ 11

Exhibit A – Summary of Monetary Results ....................................................................................... 13
Exhibit B – Pictures of Vending Machines ......................................................................................... 14
Exhibit C – Commodity Reconciliation .............................................................................................. 16
Exhibit D – FNS Reply to Official Draft............................................................................................. 17




USDA/OIG-A/27010-21-KC                                                                                                                   Page iv
Background and Objectives
Background               On June 4, 1946, Congress passed the National School Lunch Act,2 now the
                         Richard B. Russell National School Lunch Act (the Act), which authorizes
                         Federal assistance to school lunch programs. The intent of the Act, as
                         amended December 29, 2001, is to safeguard the health and well-being of the
                         Nation’s children by providing them with nutritious foods and to encourage
                         the domestic consumption of nutritious agricultural commodities and other
                         foods. This is accomplished by assisting States, through grants-in-aid and
                         other means, in providing an adequate supply of food and facilities for the
                         establishment, maintenance, operation, and expansion of nonprofit school
                         lunch programs.

                         The Act, as amended, authorizes the payment of general and special
                         assistance funds to States based upon the number and category of lunches
                         served. Section 4 of the Act authorizes general cash assistance payment for
                         all lunches served to children in accordance with the provisions of the
                         National School Lunch Program (NSLP) and additional special cash
                         assistance for lunches served under the NSLP to children determined eligible
                         for free or reduced-price lunches. The States are reimbursed at various rates
                         per lunch, depending on whether the child was served a free, reduced-price,
                         or full-price (paid) lunch. Eligibility of children for free or reduced-price
                         lunches is based upon their family’s household size and income, as listed in
                         the Food and Nutrition Service (FNS) Income Eligibility Guidelines, which
                         are reviewed annually.

                         FNS is the United States Department of Agriculture (USDA) agency
                         responsible for administering the NSLP and School Breakfast Program
                         (SBP). FNS is headquartered in Alexandria, Virginia, and has seven regional
                         offices nationwide. The FNS Mountain Plains Regional Office, located in
                         Denver, Colorado, is responsible for monitoring and overseeing operations in
                         Missouri.     The Missouri Department of Elementary and Secondary
                         Education, Division of Administrative and Financial Services – School
                         Foods, serves as the State agency and is responsible for overseeing program
                         operations within Missouri. The School Food Authority (SFA) located in
                         Platte City, Missouri, is responsible for operating the NSLP in accordance
                         with regulations. Each State agency is required to enter into a written
                         agreement with FNS to administer the NSLP/SBP and each State agency
                         enters into agreements with SFA’s to oversee day-to-day operations. The
                         SFA administered the NSLP/SBP in six public schools. The SFA contracted
                         with a commercial Food Service Management Company (FSMC) to prepare
                         the meals.



2
    42 U.S. Code 1751.

USDA/OIG-A/27010-21-KC                                                                         Page 1
                   The fiscal year 2002 funding for the NSLP was $6 billion for meal
                   reimbursements of approximately 4.7 billion lunches. The Missouri State
                   agency received approximately $104.5 million for the NSLP, $28.7 million
                   for the SBP, $1 million for the after school snack program, and $400,000 for
                   the special milk program in Federal reimbursements for fiscal year 2002. For
                   school year 2001/2002, Missouri provided State funds of approximately
                   $2.3 million to SFAs.

                   The general NSLP requirements are codified in Title 7, Code of Federal
                   Regulations (CFR) 210. Requirements for determining eligibility for free and
                   reduced-price meals and free milk are codified in 7 CFR 245. In accordance
                   with 7 CFR 250, USDA also provides donated foods to SFAs to assist in
                   operating the nonprofit lunch program. The Missouri State agency provides
                   actual commodities to each public school participating in the NSLP/SBP,
                   with the exception of one district. Generally, schools must collect
                   applications on an annual basis from households of enrolled children and
                   make annual determinations of their eligibility for free or reduced-price
                   meals. These schools must also count the number of free, reduced-price, and
                   paid meals at the point of service (POS) on a daily basis.

Objectives         The objectives of our review were to evaluate controls over the
                   administration of the NSLP and SBP. We evaluated policies and procedures
                   over meal accountability and oversight of program operation. To accomplish
                   this, we evaluated (1) the accuracy of collections and accounting for
                   reimbursed meals, (2) the accounting and use of program funds relating to the
                   SFA’s procurement of goods and services, and (3) the accounting for the
                   SFA’s school food service account.




USDA/OIG-A/27010-21-KC                                                                   Page 2
Findings and Recommendations
Section 1. Internal Controls Over the NSLP/SBP

Finding 1                      The SFA Lacked Internal Controls and Inadequately Monitored
                               the FSMC

                               The SFA lacked internal controls to monitor terms of the contract with the
                               FSMC to ensure that it received full credit for the value of USDA-donated
                               commodities. In addition, internal controls provided by the SFA’s computer
                               system could be bypassed, which could have allowed ineligible meals to be
                               claimed for reimbursement. The SFA did not perform the required onsite
                               reviews. Also, for the 2001/2002 school year, the SFA did not reconcile
                               differences between the FSMC’s reported number of meals served to the
                               SFA’s meal counts and to general ledger accounts. (However, corrective
                               actions were initiated for the 2002/2003 school year.) As a result, we
                               determined $8,281 of commodities were not credited to the SFA or otherwise
                               accounted for in the 2002/2003 school year. In addition, the SFA lacked
                               assurance that the bills submitted by the FSMC, the reimbursement claims,
                               and the financial reports were correct. Finally, the SFA sold prohibited foods
                               of minimal nutritional value during meal periods.

                               Federal regulations require that internal controls must maintain effective
                               control and accountability for all grants and subgrants, cash, real and personal
                               property, and other assets. The grantee and subgrantees must adequately
                               safeguard all such property and assure that it is used solely for the authorized
                               purposes.3 4 The SFA is required to perform onsite reviews annually.5

                               a. SFA Did Not Ensure That Full Credit for USDA-Donated Commodities
                                  Was Received From the FSMC.

                                   The SFA was not monitoring the food service program to ensure that the
                                   FSMC gave it full credit for all federally-donated foods used. Also, the
                                   SFA did not perform beginning and ending inventories of USDA
                                   commodities, as provided under the terms of the contract with the FSMC.
                                   As a result, $8,281 of commodities were not credited to the SFA or
                                   otherwise accounted for (see exhibit C).

3
  7 CFR 3016.20(b)(3).
4
  FNS officials noted that the Federal requirements for the SFA to assure the accuracy of the reimbursement claim,
including the specific edits and procedures to be followed to help assure this accuracy, are the sole "controls" or checks that
are specifically set forth for SFA’s to follow. However, the officials agreed that any SFA that utilizes an FSMC should
always check the company's billings for meals against the number of meals that the SFA has computed for its
reimbursement claim each month, primarily to review the FSMC billing accuracy, but also as a prudent check on its own
computations. The officials noted that when this comparison of SFA claim calculations to FSMC billings is made, any
discrepancies should be investigated and resolved to assure the accuracy of claims and billings.
5
  7 CFR 210.8(a)(1).

USDA/OIG-A/27010-21-KC                                                                                                Page 3
                                The SFA shall ensure that all federally-donated foods received by the
                                SFA are fully utilized and made available to the FSMC accrue only to the
                                benefit of the SFA.6 The addendum to the March 18, 1999, contract
                                requires the SFA to conduct a yearend reconciliation to ensure that the
                                SFA received credit for the full value of all USDA-donated commodities.

                                The original contract with the FSMC did not have a specific provision
                                requiring the FSMC to credit the SFA’s food service account the full
                                value of USDA-donated commodities used. The annual renewal for the
                                2002/2003 school year contained an addendum to the March 18, 1999,
                                contract which included a provision that required the FSMC to credit the
                                full value of USDA-donated commodities used of at least $0.15 per meal
                                to the SFA.

                                SFA officials told us they did not perform a beginning or ending
                                inventory of USDA commodities and did not determine if the SFA
                                received full credit for all commodities used for the food service program.
                                They said that they limited monitoring of the FSMC to periodic visits
                                made to school cafeterias.

                                We calculated commodity usage for the 2002/2003 school year by adding
                                the beginning inventory value to the value of commodities distributed,
                                according to the State agency, then subtracted the ending inventory and
                                credit adjustments. We then compared our calculation of the amount of
                                commodities used to the amount of credit given to the SFA for
                                commodities used by the FSMC (see exhibit C).

                             b. SFA Internal Controls Are Inadequate to Ensure Accurate Claims for
                                Reimbursement.

                                The SFA’s internal controls were not adequate to ensure that
                                reimbursement claims were accurate. The SFA’s computer system
                                allowed a reimbursable meal to be entered as a cash transaction without
                                any student identification associated with the transaction. As a result, the
                                SFA may have claimed reimbursement for ineligible meals.

                                The SFA is responsible for establishing internal controls that ensure the
                                accuracy of meal counts for paid, free, and reduced-price meals.7 The
                                SFA’s claim for reimbursement must ensure that schools do not request
                                payment for more than one meal per child per day.8

                                The SFA used a computer system to determine if students were eligible
                                for a reimbursable meal at the POS and to tally reimbursable meals. The

6
  7 CFR 210.16(a)(6).
7
  7 CFR 210.8(a)(2)(i)(A).
8
  7 CFR 210.7(c)(1)(v).

USDA/OIG-A/27010-21-KC                                                                               Page 4
                                   computer system had controls to prevent the SFA from claiming second
                                   meals as reimbursable meals. However, the clerks were overriding the
                                   system by visually identifying students and determining the student’s
                                   eligibility status for a reimbursable meal without appropriate supporting
                                   documentation, such as a roster, etc., and without associating the meal to
                                   the student’s account (bypasses the computer system controls designed to
                                   prevent reimbursement for second meals). While FNS does not require a
                                   student to be associated to each meal claimed, the overrides by the clerk
                                   prevented the system in place from ensuring accurate meal counts. For
                                   example, on May 23, 2003, we observed lunch being served and were not
                                   able to associate 20 meals (16 full-priced, 3 reduced, and 1 free) that were
                                   claimed for reimbursement to individual students. We could not
                                   determine if the 20 meals were served to eligible students or if the
                                   students received a second meal, which is not reimbursable.

                              c. Reconciliations Were Not Always Performed.

                                   The SFA did not always reconcile the meal counts generated by the meal
                                   accountability system to the number of meals billed by the FSMC. Also,
                                   there was not always a reconciliation of the general ledger amount of
                                   program receipts to the number of paid and reduced-price meal counts
                                   generated by the meal accountability system. The SFA had no
                                   procedures to reconcile meal counts with the FSMC to ensure the proper
                                   determination of the number of meals served per day during the
                                   2001/2002 school year. However, during the 2002/2003 school year
                                   improvements were made, including reconciling the number of meals
                                   claimed with the FSMC and the general ledger amount of program
                                   receipts. As a result, during the 2001/2002 school year the SFA did not
                                   have effective controls to ensure it did not pay the FSMC for meals not
                                   served or overstate meals claimed for reimbursement.

                                   Federal regulations require that internal controls must maintain effective
                                   control and accountability for all grants and subgrants, cash, real and
                                   personal property, and other assets. The grantee and subgrantees must
                                   adequately safeguard all such property and assure that it is used solely for
                                   the authorized purposes.9 The State agency requires all program receipts
                                   (received for reimbursable and nonreimbursable lunches and breakfasts)
                                   to be reported separately from nonprogram operations (a la carte, extra
                                   milk, banquets, etc.).10

                                   The SFA’s files contained an analysis prepared by the independent
                                   auditor which attempted to compare reported meals to program receipts.
                                   The analysis for school year 2001/2002 showed approximately $11,500
                                   more revenue in the general ledger account for program receipts than

9
    7 CFR 3016.20(b)(3).
10
     State agency NSLP Administrative Handbook, July 2000.

USDA/OIG-A/27010-21-KC                                                                                  Page 5
                             supported by the number of meals reported to the State agency. SFA
                             officials informed us that after informal communications about
                             reconciliations with the independent auditors, they began to implement
                             changes of computer software, hardware, and perform reconciliations
                             between the SFA meal counts and the FSMC bill beginning with the
                             2002/2003 school year.

                             We expanded our scope, as a result of the changes, and determined that
                             the SFA had made improvements during the 2002/2003 school year. We
                             determined that the SFA currently compares the number of meals billed
                             by the FSMC to the number of meals determined by the SFA. Because of
                             the SFA’s lack of reconciliations, there was reduced assurance the meal
                             counts for the 2001/2002 school year were correct. Based on the work
                             done by the independent auditors, and the fact that meals purchased from
                             the FSMC exceeded the number of meals claimed for reimbursement, we
                             considered the number of meals claimed to be reasonable for the
                             2001/2002 school year. Since the SFA improved controls, and we found
                             no material errors for the current year, we are not making any
                             recommendations concerning this condition.

                          d. Annual Onsite Reviews Not Performed.

                             The required annual onsite reviews were not being performed to ensure that
                             the meal accountability systems were being followed.11 The SFA personnel
                             were not aware of the need to complete onsite reviews. As a result, the SFA
                             could not ensure that the schools under its jurisdiction complied with the
                             Methods of Collections and Meal Counting agreement with the State
                             agency.

                             The Annual Onsite Review Form requires the reviewer to determine if
                             collection procedures match the approved collection procedures and that
                             meal counts are accurate. The Methods of Collections and Meal Counting
                             agreement with the State agency documents the computerized system,
                             which uses meal cards that were scanned at the POS. The computer system
                             records when students are eligible for a reimbursable meal.

                             Had the SFA performed the annual onsite reviews, it should have detected
                             that the method of coding cash transactions reduced assurance that only
                             eligible meals were claimed.

                          e. SFA Improperly Sold Foods of Minimal Nutritional Value.

                             We observed vending machines (located in the lunch area) which were
                             readily available and used by students during meal service periods. The
                             SFA had removed a wall which previously separated the vending
11
     7 CFR 210.8(a)(1).

USDA/OIG-A/27010-21-KC                                                                           Page 6
                                machines from the lunch area. The SFA officials said they considered the
                                machines to be located in the hallway and not part of the lunch serving
                                area. Because there were no barriers to the vending machines, which
                                were available during lunch, the SFA was selling prohibited foods to
                                students in competition with the NSLP/SBP.

                                Federal regulations12 prohibit the sale of foods of minimal nutritional
                                value in the dining areas during the lunch meal periods. Such foods of
                                minimal nutritional value include13 soda water, chewing gum, hard candy,
                                and licorice. Federal and State agency guidance14 15 explain the food
                                service area is where reimbursable meals under the NSLP/SBP are either
                                served or eaten as a cafeteria-type setting in a single room. The entire
                                room constitutes the food service area. A separate area may not be
                                created in a food service area by such expedients as the use of markings
                                on the floor, use of barrier devices, or portable partitions, etc.

                                Exhibit B shows the location of the vending machines relative to the
                                dining area tables. School officials advised that the pole shown in the
                                pictures replaced a wall. We believe the removal of the wall resulted in the
                                vending machines being located in the dining area in competition with the
                                NSLP/SBP.

Recommendation No. 1

                            Instruct the State agency to require the SFA to perform a beginning and
                            ending inventory of commodities, as required by the contract, and to perform
                            reconciliations and develop procedures to ensure the FSMC provides credit
                            for the value of all commodities used. Require the State agency to work with
                            the SFA and FSMC to reconcile the total commodities used during the
                            2002/2003 school year to ensure the SFA is properly credited for the
                            unaccounted commodities valued at $8,281 or the final amount determined
                            through the reconciliation process.

                            FNS Response.

                            FNS generally concurred with Recommendation No. 1 and suggested a minor
                            editorial change to the recommendation, which we incorporated (see exhibit
                            D for the complete response).




12
   7 CFR 210.11(b).
13
   7 CFR 210, Appendix B.
14
   FNS Memorandum, Sale of Foods of Minimal Nutritional Value, dated January 16, 2001.
15
   State agency web site, School Foods, Sale of Foods of Minimal Nutritional Value.

USDA/OIG-A/27010-21-KC                                                                               Page 7
                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the recommended actions to be taken by the SFA will
                   be completed and provided evidence of the amounts credited or recovered for
                   the unaccounted commodities.

Recommendation No. 2

                   Instruct the State agency to encourage the SFA to limit overrides of internal
                   controls designed to ensure that no more than one meal per child per day is
                   claimed for reimbursement.

                   FNS Response.

                   FNS concurred with Recommendation No. 2.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed dates when the State agency and SFA intend to complete the
                   contemplated actions.

Recommendation No. 3

                   Instruct the State agency to require the SFA to perform and document the
                   annual onsite reviews.

                   FNS Response.

                   FNS concurred with Recommendation No. 3.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed date when the recommended action to be taken by the SFA will be
                   completed.

Recommendation No. 4

                   Require the State agency to instruct the SFA to relocate the vending
                   machines with prohibited foods from the meal serving area or prohibit access
                   during meal serving times to ensure foods of minimal nutritional value do not
                   compete with the NSLP/SBP.




USDA/OIG-A/27010-21-KC                                                                   Page 8
                   FNS Response.

                   FNS concurred with Recommendation No. 4.

                   OIG Position.

                   In order to consider management decision, we need to be notified of the
                   proposed date when the recommended action to be taken by the SFA will be
                   completed.




USDA/OIG-A/27010-21-KC                                                              Page 9
General Comments
                             No Procedures to Prorate Interest Income to the Food Service
                             Fund

                             The SFA did not have policies or accounting procedures in effect to credit the
                             school food service account with its prorated share of interest earned from the
                             general fund and investments. The SFA was not aware of the Federal
                             regulation16 requiring interest to be prorated to the food service fund. We did
                             not attempt to calculate the amount of interest to be prorated by the SFA,
                             because the food service account’s average balance was too small to have
                             earned any significant interest. However, we believe that if interest earnings
                             increase the SFA should have procedures in place to ensure earnings from the
                             balance in the school food service account are properly recognized in the
                             SFA’s accounting system.




16
  7 CFR 210.2 definition of revenue shows that a prorated share of interest earned from investments should be credited to
the school food service’s account.

USDA/OIG-A/27010-21-KC                                                                                         Page 10
Scope and Methodology
                   Our review primarily covered NSLP/SBP operations July 1, 2001, to
                   May 31, 2003, concentrating on operations since July 1, 2002. However,
                   records for other periods were reviewed, as deemed necessary. We
                   performed audit work at the FNS Regional office, Missouri State agency, and
                   the SFA in Platte City, Missouri. We selected Platte County R-III based on
                   its location, and the SFA had an FSMC. Fieldwork was performed during the
                   period May through July 2003.

                   In school years 2001/2002 and 2002/2003, there were four elementary
                   schools, one middle school, and one high school. We reviewed NSLP/SBP
                   claims of all six schools and made observations at one elementary school, the
                   middle school, and the high school. Our audit was performed in accordance
                   with Government Auditing Standards.

                   To accomplish our review objectives, we reviewed FNS, State agency, and
                   SFA regulations, policies, procedures, manuals, and instructions governing
                   NSLP/SBP operations. We also reviewed the State agency’s most recent
                   administrative review of the SFA’s NSLP/SBP operations and the SFA’s
                   corrective actions taken in response to the administrative review findings and
                   recommendations. The following audit procedures were also performed:

                   •     Interviewed officials from the State agency, SFA, and FSMC in order to
                         obtain an overview of their method of operation for the NSLP/SBP;

                   •     Evaluated the SFA’s procedures used to gather and consolidate monthly
                         meal claims and whether reports are verified for accuracy;

                   •     Evaluated edit check controls used to assure the reasonableness of claims
                         for reimbursement when daily meal counts, by category, exceeded
                         average daily attendance;

                   •     Reviewed the SFA’s accounting system, which included a review of
                         program funds and interest on those funds;

                   •     Analyzed the monitoring efforts of the SFA through a review of the
                         onsite accountability reviews conducted during school years 2001/2002
                         and 2002/2003;

                   •     Reviewed the SFA’s procedures for issuing Request for Proposal
                         (RFP)/contracts with FSMC to operate the nonprofit food service;

                   •     Reviewed the most recent RFP/contract with the FSMC;


USDA/OIG-A/27010-21-KC                                                                    Page 11
                   •     Compared the number of meals claimed (for each category) by the SFA
                         to the State agency to the number of meals billed by the FSMC on their
                         monthly invoices; and

                   •     Compared the amount of commodities used by the FSMC to the amount
                         of credit given to the SFA for commodities.




USDA/OIG-A/27010-21-KC                                                                 Page 12
Exhibit A – Summary of Monetary Results
                                                                             Exhibit A – Page 1 of 1



  Finding No.                 Description                  Amount              Category
                  FSMC did not Properly Account for the
       1          Value of Commodities Used.                   $8,281              1/


1/ Funds To Be Put To Better Use – Management or Operating Improvements/Savings.




USDA/OIG-A/27010-21-KC                                                                    Page 13
Exhibit B – Pictures of Vending Machines
                                           Exhibit B – Page 1 of 2




USDA/OIG-A/27010-21-KC                                  Page 14
Exhibit B – Pictures of Vending Machines
                                           Exhibit B – Page 2 of 2




USDA/OIG-A/27010-21-KC                                  Page 15
Exhibit C – Commodity Reconciliation
                                                                                                Exhibit C – Page 1 of 1


                               Credited Commodities Reconciliation for 2002/2003
                                        Beginning Inventory per FSMC                  $10,677
                          Add 2002/2003 Commodities Donated per State                 $37,946
                                        Commodities Available for Use                 $48,623
                                   Less Commodities Credited to SFA17                 $32,477
                             Commodities to be Accounted for per Audit                $16,145
                                      Less Ending Inventory per FSMC                   $7,865
                                                Unreconciled Difference                $8,281




17
  Figure includes $31,947 credit from FSMC for commodities used, plus a $140 check from the FSMC after its yearend
reconciliation of commodity credits, and $390 for rebates for processed commodities paid to the SFA ($31,947 + $140 +
$390 = $32,477).

USDA/OIG-A/27010-21-KC                                                                                      Page 16
Exhibit D – FNS Reply to Official Draft
                                          Exhibit D – Page 1 of 1




USDA/OIG-A/27010-21-KC                                 Page 17
